S.cF1
Xn -the Supreme cotirfof ike United States
XJsJ PE: Maune ID. Seaton.
Petitioner

Prided toF,GAL Ma'L

forSi^e,^

Xn the Supreme CourtoF the united Stales
On Extraordinary Writ For Habeas corpus
review oF ft State courPs Judgement'

Petition For ExTraordmary writ'
For Habeas Corpus PeifieF

sdt/aApuLs dLa.t

Pefilfoner/Prisoner} Prose
Wayne M. Seoetan
Florida State Prison
Px Sox So# , RECEIVED
ftiu’Ford, Ft. 5CL0M

MAR 2 - 2021
OFFICE OF THE CLERK
SUPREMEOOURT, U,S.

Constiiicftonal duesiibn
Has the state appellate Court'olecided an imperiartr
constitutional-federod Miranda, rights Mestion in a
utay thafconflicts with the reievarffdecision ts)
of this Court'as (determined in Westtver V. LL.&..
decided with Miranda U Arizona, and/or MocfhiS
V. IMni-fed states, and/or Brewer V. Willjams ?

on
fas 'The shaft appellate court'decided an important'
ConstJ1ulfor\al-Federal Miranda nyhts g/uestton in a way that
petitioner being removed both in Time and place from his
original surrounding and Taken info custody by a second
<xgency authority and (Questioned about a different'
offense from u/haf he is in custody for a/as part of a
Single continuing session of interrogation and the officeriS)
did not hove io re-advise petitioner of his Miranda
rights nconflicts u/ith the relevant' decision cs) of this
Court'aS determined in Weslfver u. U,S.; decided with
Miranda v. Arizona, Mathis V u,A: and/r Brewer V.
williams? that held it the effect" thaif if an accuse
is presented with a different'case, after being toMen
into custody bg a second agency author/fy, removed
both in time and place From his original surrounding
From u/hafl he is in custody for, he must'be adequately
be advise of his Miranda rights before being Questioned*

CL.

farfied

fiShky N\oodij,

fiPJormy (remro^l op Florida,

3

Tobk of Cottfenis
P3-*
Caption/Cover.................
ConsTTcTonoJ Median .

- , a

.

Parties ,

3
.

Table of Contents . *
'Table of ficrfhoriti'es .

,

.

.

.

6

. 7-2

Official and moff/ciaJ repotfs of opinions and order .
Siafemerf of ifie basis for Lfarisdicfor) .
consffffibnod Provisions.

.

. .

.

STafemenf of the case . .

10-11+

.

J3

.

.Mh-aa

Peason 8 for Granting FXfraordiftojy wnf/Hoheas corpur
. 30-Zt
relief. ...........................
. . 32
Relief Soaghf - . - .
Proof/Cerfh'coTe of service

.

. 33

ftPPendix UUiTh Exhibits
£XhJhif P~J: Siofe'd if* Mfi. iniiif order and order denying
rehearing on petitioner's direefappeal in koft

fPPmdrt wilt Exhikfls
ExhihiY #2:
SiotiVs lt'r* D.c.n- order held to 8cation 1/
diode, 709 3e>.ad, 170, Cfk. fipp. 4- d/sY)<MX)
(referrence do case aYhand in foodnode )

ExhihtY & 3:
37ade fs 4- v.c.ft. order held to Section 1/ Sdade7
Ho 3o.ad. )C6 ifla.Hpp. 4- visY 207^! (sHYhg
reason dhoY confl/cis u/idh dhis courY )
EXhih/Y & y-:
SioCde *3 tfrt* veto. and fjorida Supreme courd*%
order in petitioner b case on tiahea 3 corpus
peYYons and odher peYddons

ExhihiY & S:
Florida, Supreme courtib order dismissing
Exifaordinary Writi Petition on f-srS^CLoacr

ExhihiY & /:
ExcerptioF dfanscripds of Paco! Police officer
Yestimong during hearing of Motion do
Suppress as do noYadvising petitioner of
Miranda rightis

ExhihiY & 7 :
sheriff officer 1s Police feparYus do
religious coercion of petitioner
EXhih/Y #3:
Excerpti of Yranscripds of local po'Jice officer
YesYmong as do inconsisdenti deYLiis of dlhe

S.;

incriminating statement pettaner made
Exhibit &q:
ExcerptoF trial transcripts <?F c. 3.^
officer tedtmong as to no evidence Foand
Connecting peiitioner t# ibe crime y F.EcP!ab repari" and medical report
Exhibit * la:
Federal, Southern district court oF Florida and
the (iniied SioteS CourtoF EPPeoJ For ihe
Ekvenih circaif courts’ orders denying
J/abeas Corpus and CertJiccCie oF RPPealibilHy
Exhibit * //:
~Transcript' eKcerpis in reFerrence to
pettioner being in the sheriFF's custody
and ihe shmFF aFFicer reading him his
Miranda righis aT
and
cpaertiMng petitioner until

Exhibit # J2:
transcripts excerpts in regards -is
the Fearing oF ihe Mdfim to suppress

6-

7able of HudhonTpAS

Page 0
$muer V. wMkms^So 2.3. 387, <77 3. ci71X33.,
SI L.ed.aJ.. 1-21- (1177)...................................

. 3.,to,18-20,
27,30,30,

hhnilv'S V. WS337 US.1,38 3. C-T >SoZ,
2o L.td.xJL. 38! 0163).....................

2.1

.

TAir&ftda. V. Arizona, 384- (C. 5. 1-36,26 S.cdP)6o2,
16 l-.5d.2d. £01- (71££7....................................
Sanders \J. n.6.,373 U,.SJ,83 $. cf'/o£8 C J163) .
VJesioOer 17. US., 331- U.s. 4-36, #£ S.
7£ L. i'd. nd. £01- (79££) ... .

. 2,wi,I7-I3,
20^.4,25,27,
30,28
210,17-1820,
25-28,80,21

. . ix+

16o2,
. 2,10,11,17-18,
20-23,27,30

aJ

Slade, causes:
fteadon \7. Slade 7o6,3a.xd. 3H 03a.8pp. 1- tD/sf74487 . . 70,16,78
deocfom V. STadi, 701 Sa.iJ.ni CPfaUpp. 1- Sidf711%) . . II,I7-I8
Section V. STaJi, 762. 8a.3d. 7X6 (Ho.. Ppp 1- Qisf 2.m). 11,19,21-23,
X7-28
^=4

-itimer V. d1arf&,

So.^J. 3JS CF)a. fipp. /at DC.fl. M3 ). . l8~ff
7

UMirfed. sr&fes eons/PHitfffn:

fuqe
, 12-/3,17,11,

fifth fimzndrnen'f.
Sixth Amendment' .

.

fourteenth Amendment'.
Artfck three CjzzO

.

.

.

.

23,26,23,30
. . 12.-13,2.6,2-?
21-23,30,31
. . 12-13,27,23,
30-3/
. . 12-f

liAited States Code:
UL+

US U.S.C. | l£SJfa) . .
dS ti-S-C,
$ iLWiti . . .

.

asti.s.e.% aaw . .
as u .8

| ai153 .

. 12+
. 12,20,4*

. 12,20,2$

.

as u.s. e. | aas^h

.

12, 20, ad

United Staten MPrerrie ecart' Rule:

nak not

12+

3

CUcCttons of the oFF'oiaJ and unofficial repents of
Opinions and orders*
ftecCfon v, stock iot.So.id, 3/j iff*,. npp. 4- oisf. !<M%)
Seaton \/ 3ia.it, 709 8a. ad. 171 CFk. fipp. /f Visit J 9 9X)
Seaton V> Slate y 161 8a. ad, 116 {ft*, Ppp. H~ Visitlojtr')
jj£.

See Fforidoc
DCfi^ Florida. Supreme CourTand Florida
Federal Southern VisiricfCourFand the united SiarieS
Eleventh circuit' court" oF FPPeots oFFieia! a7id/or unofficial
reports oF opinions and orders rendered in perftiioneris
Case in PPPendix With Exhibit' ^V; 5; and jo herein

9

Statementof the host's For (Jurisdiction
Xn rare cases, where the Finality oFjustce u/itf compel an
innocent man to softer an wnconsrttictonul loss oFhberty,
'this Coaft' regains theJurisdictional authority it grant'
extraordinary writ' relieF where a Fundamental midcarriage
oF Justice will continue in the unlouoFod incurc eraction oF
petitioner tor crimes he is innocent' oF
Exceptional circumstance warrants the exercise &F
the courth discretionary power to grant extraordinary
Writ relict because the staters appellate coart has
decided an important Consttut'onai- Federal Miranda
rights question in a way that'conflicts with the relevant
decision oF this court as established in )Mestover 1/ (1.8^
Cdecided With Miranda, V Arizona Mathis v. United state\
und/or Breu/er \J. Williams.
Dn February IS^ MS8, the state appellate court Per
Curiam AFFirmed pettonets appeal to his conviction and
Sentence in Beocfin \/ state. 7oi So. ad. 3/J Cfla. App. 4Dist J<M8). Petitioner had Filed a timely Motion For
Rehearing where by, establishing therein thatthe stkte
appellate courtJudges had overlooked the applicable
Miranda rights decision held by this courtin \Nestover v.
(1.3.} decided cuth MirofioCz i/ Arizona,, and/or Nvrfhis V.
LL.S. the State appellate court denied rehearing #n
(June )o/ M48. (see Court's order in Exhibit # I )

On flpirl l*f 1493, in jBcutin M. Static, 709 &c.ad> I7d> uti
173 Cik. ftpp, 4- Hist 14970, the stotic appellate court held
itucton relied on The, Miranda riykis principle of ton; tihafti
uMiranda does not reoyuire. thccf after effective a/cuter, eouob
indwiduod question iny 'the defendanti during a sibyle
Continuing Session of wterroyation must,prion to asking any
question readme the defendant of his Miranda riykis*
the decision in Section Supra, became Applicable and
binding io The affirmance of the Appeal io the case of hand
because the Miranda riykis issue u/as 'ike Same and the
appellate court"Judyes referred 7o this Case ocfhand in the
footnote. VJhereby establishiny Us decision retied on. (see
Court's order in Bxhiblt
)
On November U3) Oal^ ike State's appellate courtreasserted
and reaffirmed 03 decision retyiny upon ike same basis for
denyiny Habeas Corpus relief. (See court's order m
Exhibit ^3 ) See Section V. State. Ifo, So.sd. 12,0(fk. 11pp. Dietaoif)
fetitioner has repeatedly petitioned the Siafe 1S appellate
Court and the Florida supreme courf for Habeas corpus relief
Establishing that the state's appellate Court’Sdecision resulted
in a manifestjniusifce because Us decision Conflicts or is
contrary u/ith the relesjoont constitution at Federal Miranda
riykis decision of ihis courf held in Mtestiver v< id. 3.,
and/or Mathis V. Id.S. Whereby resulting in a fun olam midi
miscarriage of justice. {Sec courts' orders in fthibiti
Most recently on tidy ld} douo, petitioner had petitioned
the Florida supreme court for Exlraordinoury Writ relief the

Florida Supreme Court dismissed petitioner 16 Writ art
fiUyust CL'S} UoUo. (See courts order in Fxhibtt
OF October 0,2.001, pursuant to iTite CL% Ll.6C^% HUFF
petitioner Souyht Habeas Corpus relief m "the Federal S)ist
Court* For 'the Southern District oF Florida, the District
Courtjudye denied relief on May 24, Xoou, and denied
Certificate a fiPPeoJibtlffy an October ^ loot (See courts
order in Exhibit *10)
Peiffmtr appealed t the anted didies Courtof fiPPeaJ for
the Blevemth Circuit For Certficate of ftPPeatibihty Cc.o.fii).
the circuit courtJudyeS denied Cop on tanuary 4, OooS,
and denied reconsideration on March 3, xooU. (see Bxhib/t
& to )
Pettbner had Souyht Certiorari review to this supreme
Court of the united stales on Vttne 30*! £oo3j but Such
Was denied on October l¥f‘f Hood.
Ofi tanuary
Uooo} pursuantto title
w.sc. $
UOL4-4(bX3)(fl), pefijbner Souyht hereto File a Second or
Successive writ of Habeas corpus application in the united
States Courtof fifpeaj For the Blevemth circuit court Such
Was denied on January do, 2020. (see courts order in
exhibit *lo)

0

Peffioner has cxbawsied all oiler remedies in ihe Sidfe and
Federal courts. Peitiioner cannot apply io ihe federal district
Court oF Florida For Habeas Corpus relief because he had
already exhausted Such avenue curd "thus ouleyuaie relief
Cannot be obfcubed ir any oiler Form or From ary oiler' court
(See Federal Courts orders ir BXhihit * /&)
£XcepiFonod circumiances wurrmis ihe court's exercise oF
it discretionary power io acceptjurisdiciion For /Extraordinary
Writ- Habeas Corpus relftF io redress ihe Fundamental
miscarriage oFJusiFce oF ihe Federal-con siHutionaJ 5, and
rin Pmendmerff v/olatom thatreadied in ihe wrongful
conviction and unlau/Ful custody of petitioner
Pursuant' io irf)t X% U.SC. Section IFF!(a) and ifflt
XU X.S.c. Section PX^CoO, ihis Supreme courtoF ihe united
States is invested u/ifh ihe authority-jurisdiction io grand'
Bxirocrdhary writHabeas corpus relieF.
ihis courtalso has ihe legal ocuihortty io aceepfJurisdiction
For Fxtraordinary Writ Habeas corpus rriieF pursuant io Rule
do. I, oF ihe, Supreme courf oF ihe united sidils and
original Jurisdiction under Article 3 oF ihe constitution of
ike Untied SiaieS.
Conventional notions oF Finality of Httyacton have no place
Hub ere life or liberty is at stake and inFringem ent oF
Constitutional rights is alleged. See Sander V. United stated}
373 U.3. J,at 8,83 S.et 1068, out lo1X Ul£3)
tar

C.oniMTtijbfinhal Provismft

Fifth Amendment1.
“ He perseft ... . Shall be compelled in
ony criminal ca.se -is be a. Witness
against himself
3/sth Amendment
“ Xft all Criminal prosecutor)3, the
accused shad! e.njoy the right__
to have the assistance of counsel
For his defense1.1
Fourteenth Amendment:
a Me State. shall. . . deprive any
person oF. . . liberty . . . without
dote process of tawP nor shell deny
to any person corthin itsjurisdicton
ihe ecpu&i protection of the laws.7>
Rrtck uj (three):
Seeifaft one CO: The Judicial power of the liftMed tiffed} Shod)
be invested in me supreme court. . . ,J
Section too (si): ‘the judicial power shall extend to aii CaSCS,
in law and Ecpiity, arising tender the
Consttatoni the laws of the United QfocfeS,
... or which shall he made, sender their
Authority. . . I1

13.

H

gy pfeeOjC/ 9iff y&ZJuGottJ JdO'yyo 'BDJjod JVDOJ dff -JWJJjO
evj/od fwoof eiff op pj u/tftifg pim jjtfVDvjef yfofi r puwy Jenyjo
yd/tei/9 v ‘vmy gydow/ffpd uj i/MVdg v ^upgyiffjoo v/ii/m
(?#M%tL/X3 W£fdJ20X90UO9UTjf d2£)(f£ £L)
SyWlff&d
op dojyyo ^yy/J^i/g iff wojy yovjjyguvjp JMorpyjd fvy
jzy^yo vojjod /wo/ 9iff iff ion 9uoy gzff/joifpw yyunfs 9t/p,

(9* MVHXZ Ul
yd/jogimp mg)
($.£-VS £fc} vutotf gy /mw <pyuzgUQg) v fwlie Jwoypjpvd
fvi/ j? yyyo mpd /wo/ e/p (f'Glif9'59 J£)
tuv w
Y?A/0AU! SV>M 1/ jVff J0 Hu/l/pwog /Y)2Uy 91/ 4Cj/ivOU pOf/f
9A4 f/4Cj of pivjyyo 40/fod )wo/ 4iff fm/jyiff jjmuijyfg 6uv
3fvw jfu fj/o jovoyptped jfuo/pjpvd op w/ode JVd/yyo mj/od pooo/
tiff £*pM(W o& op o'C ziff &UJJW 'gfi/fyj 'v/ouw/W fffo/pojd
9/1/ yo jtuojp/ftd
fut> voyyo GLyy/jyg dffp yp

jyoiff/M JW/p/pzd fMo/pg^y/h
pwvv

j&yyyo m/fod /wo/ y

(€$
lf.) 'fwv\/ jj? lev?yuvwpjyddf m/fod /wo/ t(ff pp g/pjvhj
Uf fujuojfg^yid? joy pgejypu yo uogjvd v 90 Jouo/pjpvd 'f&ff
g9(fU0/fy)ff <pU9WfJvdd(P 9 0!(Of /VO0( OfDWg U4/VJ J.g9fl\ 9fjf
(<tpJflfy® Msxi07l0-*7'-t>ecp£cJie%v-gvi$r jy.) wyywtfpw
yuvoupjvdza d offy /nooo( /&>?$ ut/vy y.Q?M 9iff frprvpuoo uiffp
Jdojyyo yyuyg 9(fp ou n %o:y po je [topped yo Sfj.mjfgeyji git/
ytvjw/ouoo fw w# -h-h:f jpv yj/£/j v/owj/w 9to/ Jdw/ppd
yew jdo/yyo yyuoo/g y ~a$vo jjMwpjtvddf yyuoi/g v df* tfjn&ji
on 49fyo gt yyiMf/g ?fp yv Ayoopgng j<nfp w w/o/ fvy puv
jvuoipyped joypgejjv w/p/jof/piy yy/jvi/g dfUWI? /™0$ wf°d 0dd'dWd 9(ffyo jjjewdpyjg

one itutf bok justtike one oh the bracelet the intruder tiok
from Die victin
mi 1 offense. Die city beat pot{be
officer Confronted petitioner un the braceletand tild him he
Should consider himSe/f under arrestFor Sexual battery <xnd
home invasion. The oily beat police officer Den commenced to
questioning petitioner without advising him of his Miranda
rights because he wanted a statementFrom petitioner and
didn't* u/anf petitioner to invoke his rights. (tit 55^51,
63,
I£6-I3a)(see excerpt oh t/mscripls in fxhibiti ^ 6 )
IS Courify sheriff officer testified Dothe asked petitioner ih
he remember his right Dotpetitioner did not have to Sag anything*
However, the Same sheriff officer made a detailed police report
hurtdid not stated anywhere in his report thathe reminded nor
asktd petitioner ifhe remembered his Miranda, rights, (titVd-W)
the Same County sherihf officer did defatted in his report that
he notice a plague with the hordes Prayer on petitioner's television.
He Den Sat down with petitioner and asked petitioner.\ amornd
other things, if he believe in Hod, reads the dib!e}and being a
Christian. He then Further asked petitioner ih he understand Dot
Confession is good For h/S Sou! and Dot thatis what trod wanted
petitioner to do! Petitioner then made the recorded incriminating
Statement at
n.m in his home tithe City local police
officer and the County Sheriff officer. (see report in fxhibit^t)
fiuring tie hearing ah the motion to suppress and oftpetitioners
trial' the tity focal police officer testified under cross - exarninatii’on,
admitting that the incriminating statement petitioner made was
inconsistent with the details oh the crime and thatitwas him
Who Was telling petitioner the details ah the crime, (iff. pg. & To73,561,567-573) ( See excerpts oh transcripts in fxhih/t & 3)
15

curing ‘ifMi ihe Crime scene in/estgatng officer festf/ed
that toOh ajj the dusfnj For Fingerprintst aH ‘the evidence he
collected From idle vicfm^S home, petitioner'& home, and the
rape-kit Sent to the F.ft.X. For tesfhg.t he nor the F.S.XFound no evidence connecting pettoner to the crime.
(FT- 9-9$-Sou) (Bee excerptoF transcripts in Exhibit
&9)
Hur/hg the hearings of the Motor to suppress petfonefs
incriminatng statementin the state irial circuit court and
Fhe appeal briefing in the f* OjCE., peiFfioner ?*s counsels
Serf Forth that the tocai police officer u/us under an
obligation to warn peffaner oF his Miranda rights before
questioning him about a different case-offense From u/hat
petf/oner u/as in the sheriff 7s custody For. Since petitioner
u/as in the sheriffs custody For one offense and the hood
police officer uras From a different'ajency invesfjafing a
different case. Counsel also set Forth thocf there was a
break in communication in custodial interrogation when
the author/tes moved petitioner From the sheriffs office
to petitoner1& home. ft whale new questioning started in
pettonets home aft tH-i n.m. that fhe local police
officer, at a minimum, Should have warned pettoner
of his rights, [ft. SU-JSfS, to-asfa -91,1 S7-ISS,
(See transcripts excerpts in Exhibit&)l)
On February J&,
the staffs if* V eft Per curiam
afFirmed petitioners appeal in Beaton U state, ta£ So.ad.
dil CPU. ftpp. m- Qist iWtiKSee Exhibit & / )

if

On d timely Motion For Rehearing fried by petitioner
pro se} petitioner hid broughtit to the 3lctferi$ t* DC.fi.
attention that the court had overlooked ibis court's decisions
held in WesioVer \J. United states. Miranda, v/ ftrizonu. and/or
Math/S \i. (xnitied 3tirfes, The state's ¥** Deft, denied
Rehearing on tune, jo, IMS. {see court's order in Exhibitsi)
3*ft YJestbver v. U.3.j -the decision held by -this court stated
thoti * ft difParent case would be presented iF an accused were
taken into custody by a second authorityx removed both in
time and place From his angina! surroundings^ and then
adegaectely be advised oFhis rights and given an
opportunity to exercise them1'
idxaf
Si S.cti7att€M CMC)
Xn Mathis V ll.5.7 the decision held by this court stated,
that '' the Government also seeks 1a narrow the scope <?p the
Miranda holding by making itapplicable only to
gu.estoning one u/h& 'in custody in connection with
the very case under investigation. there is no
Substance to such a distinction7 and in eFFecit it
goes against the whale purpose aF the Miranda
decision which was designed to give meaningful
protector to FiFih fimendmerrf Fights?1
id.xat
S.ct.at iSoSAim)
the same Miranda rights issue involved in petitioner's
case at hand was the Same issue involved in petitioner15
other cases. Xn Seaton \J. StateT 7<?y So.&d. its. (Fla. ftpp 4^

n

S)ist JM$)} the state's H- &CJA. held that “Miranda, does
rot rewire that after effective waiver, each individual
cj/uesfbning ihe defendant during a Single continuing
Session of interrogator mast} prior 1a asking any
fueston readvise the defendant of his Miranda rights.
id; at J73. {See Courts order in BAhibit & d )
Ihe decision in Seaton, suprat became applicable and binding
1b the court's aff/mounce of petftoner's case oof hand
because in 1be footnote the courtstated That ^Seaton h^S
raised this argument numerous times in his six appeals
before 1hi6 court Ufe have already rejected 1hi3 argument
twice in case numbers vn 97~o72l6 and @/v 97-*&7XS P
Case number 97-oyiG is the case at hand cifed as
Beaton U Sidle, 7c6 So.id- 3tl Cf/a. npp 4 Visf I9°l%)
Vet toner has repeatedly petitioned ihe state's
and the Florida Supreme court For Habeas Carpus relief,
fsiablishing that the appellate court's decision resulted
in a manifest injustice because its deisior conflicts
with the Miranda rights principle ojf law established by
this court in \rJestover v.
Mathis V. WS* and/or
Brewer \J, Williams, (see courts orders in BKhibit^'lt)
Vettbner had brought ihe stale court's awn decision
held in turner U state. 91°! So.ad. 318 ifla. npp to.ct
M8 I that relied an this court's decision in Mathis V.
U. 3.jsupra. Xn turner, the state appellate court held
that €< Even though offense for which a defendant is

J3.

resirained is different Prom that for u/hieh he id
opuestfoned he must! nevertheless, before pwesfioning,
be given his rights bePore ang puestibning about
cl different' case] id-, at 37H.
Relying on the seme decision it held in Beaton V. $foCfet

7oq So.ad. n^ati m (fk. npp.

Bist (448)} the slfcft's

t1* vc.ft. reasserted and reaffirmed its decision on
November £4, £01% when the court denied Habeas
Corpus relief and imposed Sanction against' petitioner,
the coart held that i(We have repeatedly foand thocf
the questioning was part of a single continuing Session
of interrogation and the officers did not have to
re ^advise him of his Miranda, rightsV (see counts
order in Exhibit & 3 ) See (freedom v. Slate,. 16& Sosd. idE
(Fla,, ftpp. f Vist OL&ttf)
Most recently on Toly Xd} dodo, pettoner filed a
Petton for (Extraordinary writ to the Florida Supreme
court Establishing that the tr1* B.o. ft. decision resulted
in a manifest injustice. Petitioner aJso estiblished that
the sheriff officer use of such psychologiciai religious
appeal to coerce petitioner to make the faJse and
involuntary incriminating statement was a S **amendment
Constitutional-federal right violation of the Self-incrimination
compJusorg douse and in violation of fhe Miranda rights
principle of fa,u/ to this Courts decision established in
Brower v: (WiH/amS. U-So £C.$. 337, 47 S.cti (ZdZ 0477).
(Sec Courts order in Exhibit 77 s)
/?.

the Florida supreme courtJustices dismissed pettoner b
Extraordinary writ petton on AugUdt
sloslo. ( see
Court’s order in Exhibit * 5 )
On October lo^Owl} pursuantto iiile a% ta.S C-1 WXgtp
pettoner sought habeas Corpus relieF in tie Federal District
Court For the southern £>istricf oF Florida, the Federal court
judge denied relieF on May dtjdocrx, and denied
CertF/cdte oF AppeaJihility (coni) on October Chjoooa. (Set
Courts order in Exhibit * lo)
Pettoner appealed to the Mild states courtoF APPeah
For the Eleventh circuit For C.oA* on tonuary
the circuit courtjudges denied Can. and reconsideration
on March 3**, Hood. (See court’s order in Exhibit#to)
this court denied cert'orari review on October /4-rf
ciooS. .

Oh tanuury E1f) uouo, pursuant to title oft ti.S.c. §
aa^Cb)(3)(n)} pettoner Soughthave to File ou second or
Successive writoF habeas corpus application in the united
states court oF Appeals For the Eleventh circuit court
Such u/as denied on Zfknuary So^ uooo. (See court's
order in Exhibit * to )
Petitioner has exhausted ah other remedies in State and
Federot Courts. Adequate relieF cannotbe obtained in any
other Form or From oung other court
Exeeptonoi circumstance warrants this court the
authority to exercise its discretionary power to tyrant
Extraordinary writHabeas Corpus relieF to redress the
State court’s Fundamental miscarriage oFjustice that resulted
in pettoner1s wrongFed convicton and uniawFui custody.
£0

Reasons for &mnfng fxtfaordinaru writ/fabeas comas relief
fn Sedan V. SiocteJSX.SoM./i/Ota flpp. 4-tii&t&ofr'),the State
appeiiaie court held that au/e have repeatedly found that the
MM&ftanim was part of ca single continuing season of
interrogator and the author.itos did nof have to re^advise
petitioner of his Miranda rights. ”
Xfl Weslover V. United states, decided with Miranda ]/.
frizon% this coart held that iCu/e do notsuggest that law
enforcementauthorities are precluded from gaestoring any
individual mho has been held for a period of fme hg other
authorities and interrogated by them, id, at *Hd.
\festovefs case and petitioners case are similar in
circumstances in three aspect and this courts decision are
applicable to pefflibner’s case
first UJesiover u/aS arrested and in the kansas city local
Police custody for one offense, the kansas city local Police
interrogated Westover butdid not advised Utesiover of his
Miranda rights, id^ot
Pstticner coast arrested and in the P4m Beach County Sheriff
Cusfodg for one offense, the sheriff authority read petitioner
his Miranda rights at'&¥*• Pm ofthe sheriffs office and
interrogated him anti
Second. LUcsioVer UJas wanted by the f.BX1 a different
branch-agency of authority^ for a different'offense from Uihaf
the kansas City local Police arrested and had him {Wedtbver)
in their custody for. Xhid.
Petitioner anas wanted by the City of the \Nesf Palm Beach

2J.

local Police FatheriTy, a differenTbroach &F amfhority. For
a. diFferenT append & From u/haT The Palm Beach coanty sheriff
authorises arrested and had him in Their custody Far. tlT&h'&O
Third. The FSX u/enT To The. Fans as city heal Pa!ice
Headquarter3, waved Westover From one place To another, advised
WesTover oF his Miranda rights and Then interrogated him. id. TS
The WesTPaJm Beach city local Police officer menTTo The
Palm Beach County sheriffs Headquarters andgaesFoned
peftf/imer u/ifhoocf advising peHiioner oF hid Miranda rights.
The WesTPalm Beach City local Police officer Then moved
peTiTibner From The sheriff J3 oFFice and TPanSFerred him To
his home. While in pefToner's home The city heal Police
oFF/cer confronted peTHioner u/ifh incrim/noCttng evidence to
regards To The case The ciTy local police oFFicer mas
investigating., diFFerenTFrom mhoTpetTFoner mas in The sheriff
custody For. The ciTy heal police oFFicer Then yuesFoned
peTiiicnep antheocfadvising peitF'omr oF his Miranda rights
because he did noT murrfpeTtiihner To invoke his righis. CTJ.
fp. M 55X7, fa"6% tOF~I30,135-I36)(EXcerpla in fxhibiT #6)
Tin Wesiover, This courTheld ThaT * although The Tmo lam
enPoroemerrFauthorities are legally distincT and' The crimes
For which iheg interrogoCted Cfestover For mere diFfere/itl The
impacT on him mas that'oF ‘ol ccnftnueus perTod of
Me
\ id. aiT T9H.
The state appellate courPs decision in peXfioner^s case of
hand conflicts with This court^s decision in Wesfever
The state appellate courts decision rests upon The reasoning
ThaT ltihe authorities ymesifoning oF petFcner u/as d single

SL3L-

Continuing session ofquestioning*! the S&me u/aa Found by -ibis
Courtm Weaver that the impact on Westver "ma ihocf
oF £ol CohfnuouS period oF orUeS faring*. ” Xbid.
Xn VJestover. this courf u/enf on to ruk that a u diFFerenf
coae, mould be presented /Fan accused were taken into custody
by the Second authority^ removed, hath in time and places From
his original surrounding30 and then adequately be advised of
his rights and given an opportunity id exercise' them*! id ccF ttff,
86 S.ct^aft1639.
the state appellorfe court in peffoner’s case Found that uthe
authorities did ruffhave to re-advise petitioner oF his Miranda
rightsSuch decision by the state appellate Court* conflicts u/ith
this courts decision in wesfver because this court held that
*the Second authority* presenting an accused u/ith a diFFerent
Cade u/hf>nJtnken inis custody by the, Second authority: removed
both in time and place From his original surroundings] should
“adequately advise the accused of his rights andgive him an
opportunity to exercise them! Xbid.
Xn petitioner's case} the the West Palm Peach city local
Police oFFicer u/as the “
second authority. When pftlonw u/as
moved From the Sheriff's office and transferred if hid home he
u/as “removed both in time and place, From his original Surrounding.
When the West Palm Peach city local Police officer confronted
pettuner u/ith evidence of a differentcasei From c//hdtpettfimer
Was M the Palm Peach County Sheriff’s custody For and
questoned petflbner^ he a/aS required by this courts
decision in Westcver if adequately advise pe ftoner of his
Miranda rights and give peftoner the opportunity if exercise

them.. id. oftWf.
Zb.

7he circumstances in Wesfover's case and pctiHoneys case, are,
a)modi* similar, therefore, this court's decision in \Nestbver is
applicable id petitioner's case. For the Stale ouppePate court's
decision to he contrary From ihis cowt's deasion in Westover
resulted in a, decision thocfis in Conflicts mth ihis courfh
decision.
The State appellate courts decision in petitioner's case aha
conflicts with ihis courts decision in Mocthis t/ tu. S.: 39 J
UJ-J, 33 3. at)3a3, do L.eAM. 36! CJ9S8)
7he circumstances in Math’s andpetitioner's case one Similar
in ifaa aspects thatrendered ihis court's decision applicable
ib petitionerIs case and the state appeHate counted decision
Conflicts with ihis ccurt'h decision.
Mocthh was in cisiatt prison custody serving time For one
offense. Bn X.ftd. agent'went to the prison and questioned
MocthiS about'a different offense from what Mathis was in
custody For. the X.ft.8, agentdid not'advised Mathis uf his
Miranda rights before, nor after questfonina Mathis, id. ofSi.
Peftiamr u/us in the Palm Beach County Sheriff fttdhoriffes *
custody For one offense, ft West'Palm Beach city iocoJ Police
officer u/entit the Palm Beach county Sheriff's office and,
questioned petitioner abouta, different offense from ufkat
petitioner u/us in the sheriff's custody for Withoutadvising
petitioner of his Miranda rights before nor after
questioning petitioner, iff. pgo. rt*'£q--65d& I
Xn AAathis this court' held ikot a the Government' aha

SSr.

Seeks id narrow the scope ok the Miranda holding by Making
it applicable only 1c guestoning one who is in Custody in
Cmnecton With Hu very cose under investgaction. there is
no Substance to such a distinction^ and in effect i'Tgoes
againstihe whole purpose ok ihe Miranda, decision which u/as
designed id give Meaningful protection id ihe fifth nmendmefif
rights. We Find nothing in ihe Miranda opinion which calls For
a curtailmentoFthe warnings to begiven persons under
investgocflon by officers based on ihe reason why the person
is in custody* id. aftir-5,
Ihe Sidle appellate courts decision that ihe authorities or
the officers did nothave if re-ddvise petitioner of Pus
Miranda rights ” conflicts with this courts decision in
Mathis.
Xn adherence id this courts decision in Maihis, even though
petitioner was in ihe sheriffs custody for one offense and the
City local Police officer was guesilbning him shout a different
offense from who(fpetitioner was in ihe Sheriffs custody for,
ihe city local Police was, nevertheless regained idi before
guesilbning petitioner abouta different'offense, advised
petitioner of his Miranda rights id remain Silent and id the
presence of counsel Xhid.
Xn Mi’randa, this courtheld that efas Soon as ihe police
officer has evidence which would afford them reasonable
grounds for suspectng that a person has committed an
offense he must cautbn thatperson or c ceased him t* be
Cautoned before putting to him ang guestons or further
guestoning relating id ihot offense* see Miranda, oft *f81
US.

the VlestPalm Seach city local Police officer testf/ed that
tvhen he had firstspoken to petitioner at the sheriff’d office
petitioner did not said angthing to Make him believe that he
a/us involved in the crime. ftwas notuntil they were in
petitioner's home and theg found the gold bracelet He then
confronted petitioner with the broueie/ ibid petitioner he should
Consider himself tender arrest^and then questioned petitioner
Without advising petitioner of his Miranda rights because
he did noliwantpetitioner to invoke his rights, (ft
}2f-/3Q,S5$)(See transcript'excerpts in Exhibit'll
clearly the dictates of Miranda, by this courtsrepaired the
West Palm £each City loco! Police officer to warn or caused
petitioner to warned before putting to petitioner othg questions
or further questioning relating to thatoffense he was
questioning petitioner about fbiot.
:Xn petitioner's case, even though the Sheriff officer testified
that he asked petitioner if he remember his Miranda rights and
thatpetitioner did nothad to sag anything, the most'compelling
exceptional Circumstance in petitioner's case, regardless of
the sheriff officer asking petitioner if he remember his rights,
that reyai’red the authorities, of% minimum} to u/arn and/or
re-advise petitioner of his complete protected, Cons fitctibnaJ"
federal Miranda rights to remain silent'and to have counsel
present before theg putang farther questioning to petitioner,
about ang offense, was the sheriff officer own police report
that it was not miill he sat down with petitioner and asked
him about the Qib/e,(rod, being a Christian, and understanding
that Confession is good for his Soul and that id what (tod (x/atftd,
thatpetitioner made ang incriminating Statement!( Exhibit &7)
US.

Xn firmer V. Williams. Who Id. 3 - 337, at 377-4-07, 77 &,<t
IZ3Z U477)0 the detective didndfevm wentinid thatmuch af
a “Christian Burra! speech” for this courf 1# hdd that 'WU/kmS
t and
Amendment rights id the assistance op counsel oias
Violated when the detective deliberately and designedly set
otcf id elicit inPormodion Pram Williams by his use op
psychology on a person whom he kneur id he deeply religious”
This court in williams Pound CiSo dear a violation op the sixth
and Pour fearth Amendmentus here occurred cannot be cordoned,
the Some riding in Williams is applicable id pttmefs case when
the bed erty police oPPicer idUptfoner he is under arrest but
elicit notid advise petitioner op his rights because he did not
Wantpeffoner id invoke his rights-tttpg.^35-37,67-6$, ^6130, 53$)
tn petfoner1s case <t hand, the sh&riPP oppicefs impropriety
op such psychological rchgious coercive inPluenoe, calculated to
delude peffoner as id his true posifbn or id exert improper
and undue influence over peii'fbmr^s mind\ by telling him
thoCt Confession is good For his Sou! and thatis U/hat' Pod Wafted
petjfmer id do* made it imperative For the officers id advise or
re-advise petitioner oPhis complete Miranda, rights to counsel13
presence and id remain silent bePore theyy/Ci esfoneot him or
put any Further questioning to petitioner ( See exhibit * 7)
Miranda, at H'df, H~7d.

the siddfe appetlote Courthas decided an important Federal
Miranda rights question in a way thatTonPUcts With this court
decision (si in VJestdver, Miranda, Mathis, and/or Brewer
the diofe appeilecfl courts decision itut “the authorises
cyuesfbnmg op petitioner was part op a single continuing
27

Session oF interrogation and the oFFicers did nothave da re-advise
petitioner oFhis Miranda rights' ConFhets with the federal perfected
Constftutibnal rights established by this Supreme CourtoF ike, tinted
States in Miranda, V. Arizona, Wesiover U &A.} Mathis V OLA, and/or
fifemr V. Williams, thereby resulting in a, manifest' FuMdoumentJ
miscarriage oFJustce in Violation aF the (wiled stttes condttufjbn
<>*? £*1 and tt* Amendment' rights.
Bach oF ihis Court's decision^) in Miranda, lNestover, Mathis,
and/or brewer v. Williams, diddled that the authorities in
authorities in pettlonetd case uras required to advise and/or
rt~advise petibner oF his Complete protected Federal Miranda
rights id remain silentand to the os&'sthce or presence oF
Counsel prior to and/or daring yaestoniny by the County
shenFF and city local police oFFicer in pettoner's home oft
<7/4-7 fi.m.
the violation oF Such Federal- constitutional rights resulted in
the wronjFul convictbn aM unlau/Fu! custody of petitioner',
Warranting exceptional circumstances for this court if
exercise its dis&retonary power to grant extraordinary
Writ For Habeas corpus relief.
fetii'oner has exhausted all other remedies in the State
circutttrial1 appellate., and Supreme court of Florida.
fetiibner has also exhausted all other extraordinary writ
For Habeas corpus relief-remedies in 'tie applicable Federal
Didtrict courtof Florida and the anted slates Court oF
Appeals For the eleventh circuitpursuant to title x$ U.3.C.
J
clZAS, and UOM-.
Pdegcute reliep cannot be obtained in any other Farm or
From any other court
CL%

Xn peiftioner'3 case, athard ifwas explicitly arbitrary-'contrary to
the Federal prateted Miranda, rights principle of law Far "the Courtly
sheriff officer io coerced peftoner with ihe psychological religious
Coercion^ thatinduced peiffimcr io moke the false. -in vduniary
incriminating siafemen^rightafter he ashed pefifoner iFhe sit
understand or remember his Miranda rights and thtpettfoner didn't
have io sog anything. Such arbitrary-century iaiupplicocfion of the
Miranda, rights warning by the city local police oFPicer} because he
wanted io elicit a stuttmcfif From petitioner ami he didn't u/arrt
petitioner io invoke hid rights^ is also in conflict and/or contrary
-to this Supreme coart'7s wet established Miranda, rights principle
of law. ting Miranda right warnings the County Sheriff officers
advised peiftioner of^ prior io petitioner making ihe incriminating
sfoCtemenit was invalid and the incriminating siatement'involuntary.
See Miranda v. Arizona and Brewer V williams.
the Palm death Courtly sheriff officer asnd ihe City at West Palm
Beach local Police officer are from two dipferertfJurisdictional agency
of law enforcement authorities. Petitioner was in ihe county sheriff's
Custody for a totally differentoFfmse unrelated from the, case,
off hound, fitter a County sheriff officer advised petitioner of his
Miranda at
and concluded his interrogation ofpetitioner
at ihe sheriff's office at 6;o$n.m., ihe sheriff authorities moved
peiitoner from ihe sheriff's office to peiftioner's home.
V/bile in petitioner's home a different sheriff officer and a
City local police officer Started a whole new differentsession of
interrogation of petitioner in his home of 4:<rin.m. about the
Case at hand, fit this time ot VWfl.M id when the sheriff
officer coerced peiftioner with the psychological religious appeal
and ihe City local police officer refused io advise peiftioner of
his Federal protested Miranda rights.

M.

'The. 5^ AmendmentoF The untied states constitution states
in relevantpart that ((No person shall he compelled in any
Crimino! cose to he a witness against himself”
The £** amendment' of the (dnited slides Constitution States
in relevant" port' that*1 Sn all criminal prosecution 6 the
accused shall enioy the right to hove the assistance of
Counsel far his defense!?
the 5** and the 6th Amendment' clause of the untied States
Constitution is incorporated in the Vu,i Process clause of the
Ih-W Amendment and thus applies to the states, the lAril
Amendment'states in relevant part that “Mo State shall
deprive any person of liberty without due process of Jaw,
nor shall deny to any person within its jurisdiction the
equal protection oF the law”
tn order to accord the privilege Under the 5^
and
Amendment'this court's predecessors rendered the
decision held in Miranda V. Arizona, came to he known aS
the °Miranda rights 1} warning.
tn Miranda^ this court's decision states that u Without
proper SaFeguards the process oF in-custody interrogation
oF persons suspected or accused. oF crimes Contains inkereft
Compelling procure which works to undermine the individuals
will to resist'and compel him to Speak where he would not
otherwise do so freely1 id, at' ^Ct^ %6 3. cf^at iFOOh*
* my evidence that the accused was threatened> tricked,
or cajoled into a waiver Will show that the individual
did not Voluntarily waived his privilege1 id, at H-tf,
S. ct. at MM.

3o.

the Prim fetich County Sheriff officer adm/ftance that he, ased
pdgchological religious Coercion and the City of WeSf palm $couch
local Police, officer admittance ihafhe didn't advised petition er of
his Miranda rights, in order to compel petffbmr to make 'the False
and involmiiry incriminating Qiatemerit^establishes that
petitioner did not knowingly, intelligeriftyj and voluntarily
Waived his Miranda rights, (tfpgt-63\IH6Ido) (fee 8herifFs reportin FAhibit * 7 and transcriptsin FX. ^£)
the state County sheriff officer and the city local Police officer
violated, petitioner1s federal protected Constitutional
ftmendmerit due process of law Miranda, rights to remain silent
and not to be Compel to be a witness against himself fonder the
ft* Amendment selfincrimination clause and to have the
assistance or presence of Counsel prior to or daring custodial
tpiMStioning fonder the &** Amendment in a criminal proceeding<
the City focal police officer admitted that the incriminating
Statementpetitioner made is inconsistent with the details of
the crime,) thus, could nthave been the person who committed
the crime, lit
(See transcriptexcerpt In BXtS)
toe C.&.X. officer testified atpettibner^s trial thatwith aJJ the
dusting for finger prints, the evidence he collected from the crime
3cenei the victim’s and petitioners home y the rape-kit sent to the
P.$>X for tesfng, along with bloody hair, and sotiva, collected from
petitioner, and the medical report^the F&.X nor him Found , no
evidence connecting petitioner to Fie crime. (ftpgt ft -foal)
feftoner's innocence along u/tfh the violation of the consfititi'onalfederal protected Miranda rights requires the immediate release
of peftibner from custody or for his Convicfbn to he overturn and
reverse for a new trial u/ifhotCF the incriminating statemeriti
3!

Relief Adfajlrf
Peiffbner humbly moves -this Honorable Supreme Coar'Ps
Vksifces io grafl'T Bxlraordmarg wrif/Habeas corpus relief.
Whereby reversing ihe SioHe Coarf'sJadgeineni'and remrdirg
peHifoner^s case mih insfrowilbn far peirffmer io receive a,
flea/ ifiai tcpoh fhe Suppression of ihe inadmissiblt-irvdoflanj
j/icrimmaiffnj siccltm-errf or for peiyfbmr if be release from
CUSibdy.

RespeeifalJy Sabmiiiedj
j/dd&A

/ButroriZiK,

feifiibner, ProSe

3Z-

